HHS/OIG, Audit -"Review of Payments Made by Palmetto Government Benefits Administrators for Home Health Services Preceded by a Hospital Discharge,"(A-04-03-00018)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Payments Made by Palmetto Government Benefits Administrators
for Home Health Services Preceded by a Hospital Discharge," (A-04-03-00018)
February 20, 2004
Complete
Text of Report is available in PDF format (759 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Centers for Medicare and Medicaid Services provides for a lower payment for home health services
rendered to beneficiaries discharged from an acute care hospital within 14 days immediately preceding admission to home
health care.  Based on a statistically valid sample, we estimate overpayments of approximately $10 million to home
health agencies (HHAs) were made by Palmetto Government Benefits Administrators (Palmetto) for fiscal year 2001 for claims
that did not meet this 14-day requirement.  These overpayments occurred because HHAs did not provide the necessary
or correct information to Palmetto, and Palmetto had not established adequate postpayment controls to detect HHA claims
that were billed incorrectly.  In addition to financial adjustments, we recommended that Palmetto provide education
to HHAs to ensure that beneficiary discharge data is completed accurately on patient assessment instruments.